No.____
STEPHEN ROBERT DECK,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE WITH WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 8,544 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

s/Charles M. Sevilla
Charles M. Sevilla
* Counsel of Record
Member of the Bar of this Court
Law Offices
402 W. Broadway, #720
San Diego, CA 92101
(619) 232-2222
chuck@charlessevilla.com
Attorney for Petitioner Deck

